No. 20-892
IN THE

Supreme Court of the United States
ARIOSA DIAGNOSTICS, INC., ROCHE SEQUENCING
SOLUTIONS, INC., ROCHE MOLECULAR SYSTEMS, INC.,
Petitioners,
v.
ILLUMINA, INC., SEQUENOM, INC.,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

REPLY BRIEF FOR PETITIONERS
ROBERT J. GUNTHER, JR.
CHRISTOPHER R. NOYES
OMAR A. KHAN
WILMER CUTLER PICKERING
HALE AND DORR LLP
7 World Trade Center
250 Greenwich Street
New York, NY 10007
THOMAS G. SPRANKLING
WILMER CUTLER PICKERING
HALE AND DORR LLP
2600 El Camino Real, Suite 400
Palo Alto, CA 94306
Attorneys for Roche Molecular
Systems, Inc. and Roche
Sequencing Solutions, Inc.

DARALYN J. DURIE
Counsel of Record
DURIE TANGRI LLP
217 Leidesdorff Street
San Francisco, CA 94111
(415) 362-6666
ddurie@durietangri.com
KIRA A. DAVIS
DURIE TANGRI LLP
953 East 3rd Street
Los Angeles, CA 90013
Attorneys for Ariosa
Diagnostics, Inc.

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ........................................... ii
ARGUMENT ....................................................................... 2
I.

THE FEDERAL CIRCUIT’S RULING CANNOT
BE SQUARED WITH MYRIAD OR EXISTING
SECTION 101 DOCTRINE MORE BROADLY ................. 2

II. THIS CASE PRESENTS AN EXCELLENT
VEHICLE TO RESOLVE THE QUESTION
PRESENTED ................................................................... 9
CONCLUSION ................................................................. 12

ii
TABLE OF AUTHORITIES
CASES
Page(s)
Alice Corp. Pty. Ltd. v. CLS Bank
International, 573 U.S. 208 (2014) ................... 1, 2, 11
Ariosa Diagnostics, Inc v. Sequenom, Inc,
788 F.3d 1371 (Fed. Cir. 2015) ................................ 2, 8
Association for Molecular Pathology v.
Myriad Genetics, Inc., 569 U.S. 576 (2013) ..... 1, 3, 11
Mayo Collaborative Services.v. Prometheus
Laboratories, Inc., 566 U.S. 66 (2012) ............. 4, 5, 11
Merritt v. Welsh, 104 U.S. 694 (1881) ............................... 9
Parker v. Flook, 437 U.S. 584 (1978) ................................ 5
Rapid Litigation Management Ltd. v.
CellzDirect, Inc., 827 F.3d 1042 (Fed. Cir.
2016) ............................................................................... 8
Virginia Uranium, Inc. v. Warren, 139 S. Ct.
1894 (2019) ..................................................................... 9
STATUTORY PROVISIONS
35 U.S.C. § 101 ..................................... 1, 2, 3, 6, 7, 9, 10, 11

This Court has held that “separating [a] gene from
its surrounding genetic material is not an act of invention” under 35 U.S.C. § 101. Association for Molecular
Pathology v. Myriad Genetics, Inc., 569 U.S. 576, 591
(2013). The panel majority, however, came to the opposite conclusion. It held that a patent claim that involves
separating larger naturally-occurring human DNA
from smaller naturally-occurring human DNA is patentable under Section 101—without any consideration
of whether the patented method itself provides an innovative process for achieving that result (i.e., an inventive concept).
Respondents’ only argument for why the panel majority’s ruling does not violate Myriad is that this case
involves method claims and Myriad did not. But Myriad explained that the patentee “could possibly have
sought a method patent” only if the patentee had “created an innovative method of manipulating genes.” 569
U.S. at 595-596 (emphasis added). And Respondents’
insistence that the claims here are directed to eligible
subject matter because they involve a “process” cannot
be reconciled with Alice v. Corp. Pty. Ltd. v. CLS Bank
Int’l, 573 U.S. 208, 216 (2014), which not only established the governing framework but applied it to invalidate a claim to a process—the same kind of claim at
issue here.
Myriad further held that the central idea of the patents in this case—separating human DNA from surrounding genetic material—is “not an act of invention.”
Myriad, 569 U.S. at 591. But here, the panel majority
did not even consider whether the patented method
was innovative and, if anything, reinforced the district
court’s conclusion that it was not. See Pet. 15. Respondents’ vague warning that reversing the panel majority’s ruling would “cast a cloud of uncertainty” over

2
patents on “purifying water” and “cleaning air” (Opp.
17) rings hollow. If such patents described an innovative way of purifying or cleaning, Section 101 would
pose no obstacle. To the contrary, it is the panel majority’s holding—that a process for separating one naturally occurring substance from another is patentable without any consideration of whether the process is innovative—that wreaks havoc on existing doctrine.
The petition for a writ of certiorari should be
granted.
ARGUMENT
I.

THE FEDERAL CIRCUIT’S RULING CANNOT BE
SQUARED WITH MYRIAD OR EXISTING SECTION 101
DOCTRINE MORE BROADLY

As Petitioners have explained, the panel majority’s
ruling conflicts with Myriad and Ariosa Diagnostics,
Inc v. Sequenom, Inc, 788 F.3d 1371 (Fed. Cir. 2015).
Pet. 12-22. Respondents have no persuasive response.1
A. Respondents’ sole argument regarding Myriad
is that Myriad involved composition claims (i.e., claims
to isolated DNA itself) rather than, like here, methods
of separating and analyzing DNA. Opp. 7, 13-14. But
this rigid distinction between composition and method
claims makes little sense (Pet. 13), and this Court has
already held in Alice and other cases that Section 101
applies to method claims, Alice, 573 U.S. at 217.
1

Respondents incorrectly allege that Petitioners’ Federal
Circuit brief “recognized that neither [Myriad or Ariosa] was directly on point.” Opp. 12. Respondents do not cite any such
statement about Myriad. Moreover, Respondents rely on Petitioners’ statement that Ariosa “closely resembles” this case (id.
(emphasis added))—hardly a concession that Ariosa was not on
point.

3
Indeed, almost any DNA composition claim could
be rewritten to be a method for isolating that DNA.
For example, the composition claims for the breast cancer genes at issue in Myriad easily could have been rewritten to cover a generic two-step process:
(1) separating the breast cancer genes from other genetic material and (2) analyzing the breast cancer
genes. This method claim would grant the same effective control over the relevant genes as the composition
claim invalidated by this Court and thus would raise
the same concerns about “inhibit[ing] future innovation” that the Myriad Court warned against. Pet. 13.
Respondents have no answer.
As discussed above, moreover, Myriad indicated
that an “innovative” method for isolating DNA might
have been patent eligible. 569 U.S. at 595-596. That
standard is not met here. Myriad was clear that the
mere act of separating DNA from genetic material
(which is essentially all that is claimed here) is not an
“act of invention” sufficient to justify patent eligibility
under Section 101. Id. at 591. In any event, the panel
majority here did not even consider whether Respondents’ techniques for separating smaller DNA from larger DNA fragments were innovative because it did not
reach step two of the Alice test. Pet. 13-14. Again, Respondents have no answer.
B. Unable to distinguish Myriad, Respondents
urge this Court to ignore it and instead apply the “settled two-part test” laid out in Alice. Opp. 7. But both
cases apply here. Myriad informs the Alice step-one
analysis—a patent is necessarily directed to unpatentable subject matter (i.e., a law of nature) if it merely
claims separating a gene from its genetic material. See
Myriad, 568 U.S. at 591 (describing patents at issue as
“f[alling] squarely within the law of nature exception”).

4
In other words, Respondents are simply wrong that
this case involves the “factbound” application of the Alice standard. Opp. 15. To the contrary, the panel majority ignored the important legal principle outlined in
Myriad and did so in a way that will have serious ramifications—making it easier to patent human DNA and
generally allowing clever drafters to evade the substantive limits on patentability set forth in Myriad.
Pet. 22-25.
Respondents also argue that it is overly simplistic
to describe the patents as directed to the idea of separating smaller DNA fragments from larger ones. Opp.
9-10. Rather, Respondents assert, the patents claim
the “selective removal of longer DNA from a maternal
sample to enrich the fraction in [smaller] fetal DNA, for
use in fetal genetic testing.” Id. But that is simply another way of saying the smaller fragments of DNA are
separated. See Mayo Collaborative Servs. v. Prometheus Labs., Inc., 566 U.S. 66, 77-78 (2012) (“If a law of
nature is not patentable, then neither is a process reciting a law of nature, unless that process has additional
features that provide practical assurance that the process is more than a drafting effort designed to monopolize the law of nature itself.”).
To the extent Respondents are suggesting that limiting the patents to the specific context of genetic testing somehow alters the analysis, they are wrong. As
the Mayo Court explained, Einstein could not patent
E=mc2 simply by claiming a process by which he told
“linear accelerator operators” to apply it, “[n]or could
Archimedes have secured a patent for his famous principle of flotation” by claiming a process by which he
told “boat builders” to apply the principle. Mayo, 566
U.S. at 78.

5
Respondents relatedly assert that the patents are
not directed to a natural law because they specify two
different size thresholds that should be used as part of
the separation process—500 base pairs and 300 base
pairs. Opp. 10. But as Petitioners have pointed out
(and Respondents ignore), the patents themselves state
that the 500 and 300 base pair thresholds reflect the
naturally occurring size of fetal DNA and the use of
conventional techniques to separate it. Pet 16-17. For
example, both patents explain that on average, the inventors “found” fetal DNA “to be smaller in size (approximately 500 base pairs or less)” than “maternal
DNA (greater than approximately 500 base pairs)”—a
“finding that forms the basis of the” invention claimed
in the patents. See Id. 16 n.5. In one experiment,
moreover, the patentees found that “DNA fragments
originating from the fetus were almost completely of
sizes smaller than 500 base pairs with around 70% being … sizes smaller than 300 bases.” Id.
While Respondents point out (at 10-11) that the
size of fetal DNA fragments may vary somewhat from
woman to woman, this is a red herring. The question is
not whether separating DNA at the 500/300 base pair
thresholds will achieve some desired (but unclaimed)
level of enrichment of fetal DNA for all people; the
question is whether the size distribution of DNA existed in nature before it was described in the patents (and
under Alice Step two, whether the inventors added anything inventive to it). See Mayo, 566 U.S. at 77 (“[A]
patent that simply describes [a naturally occurring] relation[ship] sets forth a natural law.”); Parker v. Flook,
437 U.S. 584, 593 n.5 (1978) (invention that merely “reveals a relationship that has always existed” is not patentable). The patents themselves admit that the
500/300 base-pair thresholds did in fact exist in nature.

6
See Pet. 16-17. Indeed, the patents report that the
claimed methods were used to study that natural distribution. Id. In addition, Respondents tellingly do not
dispute that the 300/500 base pair thresholds were in
use before the patents issued, as those values derive
from the fragment sizes used in off-the-shelf DNA kits.
Id. 17.
Respondents also contend that even if the patents
are directed to a law of nature at Alice step one, they
describe an inventive concept at Alice step two because
the 500/300 base pair limitation does not preempt the
basic principle that fetal DNA tends to be smaller than
maternal DNA. Opp. 11-12. Respondents’ Alice step
two argument is not only wrong but reinforces the need
for review. The panel majority’s decision in this case
conflicts with Myriad and other Section 101 precedent
precisely because it held that the separation of smaller
fetal DNA from larger maternal DNA survived Section
101 review at Alice step one without considering
whether the process claimed was innovative or nonconventional under Alice step two.
Had the panel majority reached the issue, it almost
certainly would have joined the district court and dissent in concluding that the patents do not claim an inventive concept because the patents merely apply conventional tools to naturally occurring materials. Pet.
14-15. It is also troubling that Petitioners were granted multiple patents claiming different size thresholds.
This means that (if the panel majority’s logic is upheld)
Petitioners could have sought dozens of other patents,
each claiming a different threshold—effectively
preempting all efforts to separate DNA based on the
naturally occurring size distribution of fetal DNA. Indeed, the panel majority’s step-one-focused reasoning
would allow for patents that undisputedly preempt

7
basic building blocks of scientific knowledge to survive
Section 101 review, as preemption is only an issue at
Alice step two.
Finally, Respondents contend that an altered version of Petitioners’ hypothetical about filtering pondwater to study a microorganism would survive Section
101 review. Compare Pet. 15 with Opp. 16-17. But Respondents’ modified hypothetical—using “an approximately 5-micron diameter filter on water from a specific kind of brackish pond to enrich the proportion of a
particular microorganism”—suffers from the same
flaws as the patents here. The use of a specific filter
size that reflects the average size of the microorganism
to be filtered adds nothing inventive to the law of nature at issue—the discovery of the size of the microorganism itself, which is akin to the discovery of the
500/300 base-pair thresholds here. Nor is there anything inventive about looking for “a particular microorganism” in a “brackish pond” where those are known
facts—just as the presence of cell-free DNA in maternal blood was already known here (App. 2a). If such a
claim were to be patent eligible, it would have to be because, under Alice step two, it includes an inventive
concept beyond that natural law. But that second-step
inquiry into the existence of an inventive concept is exactly what the Federal Circuit failed to perform here.
Step two of the Alice test also refutes Respondents’ warning that application of the Myriad principle
will “cast a cloud of uncertainty over” patents on processes like purifying water or cleaning air. Opp. 17. If
those processes include an inventive concept under Alice step two that goes beyond an underlying law of nature, Section 101 poses no obstacle. This Court created
a two-step test for a reason and should not allow the
Federal Circuit to collapse the framework it created.

8
C. In addition to conflicting with this Court’s
guidance, the panel majority’s decision creates incoherence in the Federal Circuit’s own jurisprudence. Respondents argue that the Federal Circuit’s decision in
Ariosa v. Sequenom, is distinguishable, adopting the
panel majority’s explanation without further analysis.
Opp. 14. As the Petition explained, however, the distinctions drawn by the panel majority make little sense
because (1) the “method of preparation” category was
created out of whole cloth, and (2) the “enrichment” of
the sample in Ariosa through selectively copying DNA
to create new molecules in the laboratory was, if any,
further from nature than the “enrichment” here
through mere separation of DNA already present in a
blood sample. Pet. 19-21. Tellingly, Respondents do
not even attempt to address Petitioners’ arguments.2
Respondents also contend that “even if there were
tension” between the panel majority’s ruling and Ariosa, “that would not warrant this Court’s review.”
Opp. 14. Respondents, however, never explain why
this is so. To the contrary, resolving a conflict between
this case and Ariosa would serve the important purpose of eliminating confusion in the Federal Circuit, the
district courts, and the Patent and Trademark Office.
2

Respondents do argue (at 13-14) that this case resembles
Rapid Litigation Management Ltd. v. CellzDirect, Inc., 827 F.3d
1042 (Fed. Cir. 2016). But the panel majority itself recognized that
CellzDirect is “not directly on point.” Pet. App. 15a. This is because CellzDirect involved a patent claiming a “new and useful
cryopreservation technique”—rather than the patents here, which
merely “apply[] a known laboratory technique to a newly discovered natural phenomenon.” Id. 30a (Reyna, J., dissenting); see also
Pet. C.A. Br. 27-30. And regardless of any similarity to CellzDirect, the Federal Circuit’s decision in this case still conflicts with
Ariosa, which is more directly on point.

9
Pet. 18, 21-22. Because the Federal Circuit is the only
appellate court that resolves patent law issues and it
has declined to grant en banc review in this case, this
confusion will linger unless and until this Court acts.
Respondents do not deny that the Federal Circuit itself
has expressed its confusion and called for this Court’s
help. Id. 24-25.
D. Finally, Respondents repeatedly suggest that
because the patents ostensibly claim a “process,” they
necessarily survive review under Section 101. Opp. 4,
7, 8-9, 11, 12, 16, 18. They cite no authority in support
of such a rule and for good reason: This Court has held
for nearly 170 years that an invention is not patentable
if it claims a “law of nature, natural phenomena, [or]
abstract idea[].” Pet. 5. There is no exception to that
longstanding rule for inventions that can be described
as a “process.”3 Indeed, Respondents acknowledge that
the two-step analysis laid out in Alice is the “settled
legal test” under Section 101. Opp. 15; see also id. 5
(Alice is the “well-settled test” for Section 101), id. 7
(Alice provides the “settled two-part test”). More accurately, it was the settled test until the panel majority’s ruling in this case.
II. THIS CASE PRESENTS AN EXCELLENT VEHICLE TO RESOLVE THE QUESTION PRESENTED
This case provides a strong, straightforward vehicle to reaffirm Myriad’s holding that the mere act of
separating a gene from surrounding genetic material is
not patentable under Section 101. First, the issue is
3

The only cases Respondents cite (at 8-9) are not even patent
cases. See Virginia Uranium, Inc. v. Warren, 139 S. Ct. 1894, 1900
(2019) (preemption); Merritt v. Welsh, 104 U.S. 694, 696 (1881)
(sugar import duties).

10
cleanly presented because the Federal Circuit’s decision rested solely on its conclusion that the patents-insuit are not directed to a law of nature—the Federal
Circuit did not identify any alternative grounds that
would support its holding. Second, the opinion below is
published and provides a detailed (although erroneous)
analysis to support its holding. If this case is allowed to
stand, subsequent decisions will likely be unpublished
and will contain less reasoning for this Court to review.
Respondents identify three purported reasons why
this case is a poor vehicle, none of which is persuasive.
First, Respondents argue that even if the panel majority’s decision is reversed, they might prevail on remand
under Alice step two. Opp. 18. This misses the point.
The primary reason for this Court to grant review is
that the Federal Circuit truncated the analysis at step
one and created an end-run around Myriad’s holding as
a matter of law. The hypothetical possibility that Respondents could prevail at step two on remand—
although unlikely—does nothing to detract from the
importance of reversing the legal error that is currently binding precedent in the appellate court with exclusive national jurisdiction over patent law matters.
Second, and relatedly, Respondents assert that applying the proper Myriad/Alice standard would not resolve whether all of the dependent claims are invalid.
Opp. 19. But the panel majority did not suggest that a
different analysis would apply to the dependent claims;
rather, in a short footnote, the majority “note[d], without deciding” that Respondents had “argue[d]” that
one dependent claim employed a novel methodology.
Pet. App. 16a n.1 (emphasis added). Notably, the district court held—and Judge Reyna would have held—
that all the asserted claims (including the dependent
claims) were invalid under Section 101. Id. 88a (district

11
court); id. 35a (Reyna, J., dissenting). Regardless, the
primary reason for this Court to review is to fix the legal error at Alice step one—there is no need for this
Court to make a ruling on the patentability of the dependent claims.
Finally, Respondents argue it would “depart from
… ordinary practice” to take this case up because it
arose in an interlocutory, summary judgment posture.
Opp. 17-18. This ignores that each of the Court’s last
three Section 101 rulings also arose in a summary
judgment posture. See Alice, 573 U.S. at 214; Mayo,
566 U.S. at 76; Myriad, 569 U.S. at 586. If anything,
this Court’s “ordinary practice” in the Section 101 context is to grant review of summary judgment rulings.

12
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted.
ROBERT J. GUNTHER, JR.
CHRISTOPHER R. NOYES
OMAR A. KHAN
WILMER CUTLER PICKERING
HALE AND DORR LLP
7 World Trade Center
250 Greenwich Street
New York, NY 10007
THOMAS G. SPRANKLING
WILMER CUTLER PICKERING
HALE AND DORR LLP
2600 El Camino Real, Suite 400
Palo Alto, CA 94306
Attorneys for Roche Molecular
Systems, Inc. and Roche
Sequencing Solutions, Inc.
MAY 2021

DARALYN J. DURIE
Counsel of Record
DURIE TANGRI LLP
217 Leidesdorff Street
San Francisco, CA 94111
(415) 362-6666
ddurie@durietangri.com
KIRA A. DAVIS
DURIE TANGRI LLP
953 East 3rd Street
Los Angeles, CA 90013
Attorneys for Ariosa
Diagnostics, Inc.

